                         Office of Inspector General
                         Legal Services Corporation



Inspector Genera]
Jeffrey E. Schanz.

3333 K Street, NW. 3rd Floor
Washington, DC 20007·3558
202.295.1660 (p) 202.337.66 16 (f)
www.oig. lsc.gov
                                                       MEMORANDUM

           DATE :              July 10, 2014

          TO:                  Jim Sandman
                               President, LSC

           FROM :              Jeffrey E. Schanz    lfL c.         9t7~
                               Inspector General,   ~#~           ~
           SUBJECT:            Final Report on the Follow-up on the Audit of Report No. AU09-05 ,
                               Legal Services Corporation Consultant Contracts


          Enclosed is the Office of Inspector General's (OIG) final report on the Follow-up on the
          Audit of Report No. AU09-05 Legal Services Corporation Consultant Contracts . The
          OIG has reviewed management's comments on the findings and recommendations
          contained in the draft report. Management's comments are included in the final report
          as Appendix II.

          Management has agreed to all the findings and recommendations in the report. Actions
          taken on Recommendations 1, 2, and 3 are considered responsive and will be
          considered closed. Planned actions on Recommendations 4 and 5 are responsive ,
          however, the two recommendations will remain open until OIG is notified in writing that
          the proposed action has been completed or implemented.

          We thank you and your staff for your cooperation and assistance.


          cc:        Ron Flagg , General Counsel
                     David Richardson, Comptroller




                                                                                            =ILLSC
                                                                                            II      America', Pam.c:r Fa. &p..I juJtiu
 LEGAL SERVICES CORPORATION
 OFFICE OF INSPECTOR GENERAL




FOLLOW-UP ON THE AUDIT OF
 REPORT NO. AU09-05 LEGAL
 SERVICES CORPORATION'S
 CONSULTANT CONTRACTS


       Report No. AU14-07


             July 2014


          www.oig.lsc.gov
                                   INTRODUCTION


This audit is a follow-up on the effectiveness of management actions taken to correct
the issues reported in our 2009 audit report entitled "Audit of LSC's Consultant
Contracts" relating to implementing controls over the consultant contracting process.

LSC's contracting policies and procedures are contained in Chapter 1 of the LSC
Administrative Manual. This chapter was last amended in December 2009 . It is
organized as follows :

      Part I - Definitions and Policies
      Part II - Procedures for Procurement of Goods
      Part III - Procedures for Contracting for Services
      Sample LSC Contract Approval Form
      Contract Originator's Contracting Procedure Outline

In general, LSC's contracting policies and procedures require that contracting for
services undertaken on behalf of LSC be subject to competition and undergo various
levels of review and approval. The policies and procedures also require that a purchase
order be issued for each contract. The use of a Contract Approval Form is mandatory
to document that required steps are performed and required approvals are obtained .
LSC's contracting policies and procedures outline documentation requirements and
require that the Comptroller's Office maintain contracting records for audit purposes.
Lastly, a quarterly procedural sufficiency report to the President is required to ensure
compliance with LSC's contracting policies and procedures.

LSC's consultant contracts originate in the requesting office, including contracts initiated
at the direction of the Board of Directors and processed by the Office of Legal Affairs
(OLA). Consultant contracts are for the procurement of services in which contractors
use their time, skills and expertise. For the period of our review, LSC made contract
payments valued at approximately $1.69 million.

Prior Audit

On July 7, 2009, the OIG issued an audit report entitled "Audit of LSC's Consultant
Contracts." The OIG reported, among other things, that the design of controls over
consultant contracts were generally adequate, however application of the controls was
not enforced. LSC's written policies and procedures over the consultant contracting
process were not regularly followed. Specifically:

          •   competition requirements were not followed ;
          •   required approvals were not obtained ;
          •   required basic information was not used in some contracts;
          •   forms to control the contracting process were not used;


                                             1
           •   purchase orders were not always prepared; and
           •   contracting records were not properly maintained .

Eight of the 13 recommendations made by the OIG related to clarifying and following
the policies and procedures used by all LSC personnel involved in the contracting
process and addressed the issues listed above.

LSC management reported to the OIG that all actions on the 13 recommendations were
completed. As a result, the OIG closed all 13 recommendations.

                                      OBJECTIVE

The overall objective was to determine if LSC management's actions corrected the
deficiencies cited in the original report pertaining to following LSC's established policies
and procedures to contract for consultants. Specifically, we determined whether
internal controls and policies now in place as a result of the original audit were properly
designed and followed.

                              OVERALL EVALUATION

Management did not correct several of the deficiencies identified in the original report.
While the design of controls over consultant contracts were generally adequate, the
controls were not always applied . As a result, LSC's consultant contracting practices
did not always follow the established policies and procedures.

Specifically, some contracts were awarded without:

       •   either engaging in competition or documenting the applicable exceptions to
           the competition requirement;
       •   obtaining the required approvals;
       •   files having all required documentation ;
       •   including basic information; or
       •   properly documenting contract amendments and having them approved by
           the Office of Legal Affairs (OLA).

We also found that quarterly reports assessing the contracting process were not
adequately prepared and that purchase orders were either not processed or improperly
processed . Our detailed findings are presented below.




                                              2
                                  AUDIT RESULTS


While LSC management agreed with all recommendations in the prior audit report and
reported that appropriate actions were taken, operating personnel were not always
following appropriate policies and procedures. Also, quarterly reporting to verify that the
contracting system was working as designed was either not properly implemented, not
accurate, or not acted upon when issues were identified. As a result, the OIG considers
all findings in this report as repeat findings.

Contracting Process and Procedures Were Not Always Followed

Policies and procedures for processing and controlling consultant contracts were not
adequately implemented. Although adequate policies and procedures are contained in
the LSC Administrative Manual, Chapter 1, Parts I and III, they were not always
followed . All nine contracts reviewed had one or more deficiencies. The deficiencies
and the number of contracts identified with the deficiencies are as follows.

   •   The rationale for using a sole source contract was not adequately documented
       for three sole source contracts. (LSC Administrative Manual, Chapter 1, Part I,
       Paragraphs C-8a and C-8b, and Part III, Paragraphs B-2c and B-2d)

   •   A contract approval form was not properly executed for one contract.          (LSC
       Administrative Manual, Chapter 1, Part I, Paragraph B-2)

   •   Basic information, such as a schedule for completion of the work, and a
       specification that the contractor is an independent contractor and not an
       employee of LSC, was not included in one contract. (LSC Administrative
       Manual, Chapter 1, Part III, Paragraph B-3)

   •   Contractors were not required to submit invoices directly to the Comptroller for
       nine contracts. (LSC Administrative Manual, Chapter 1, Part II I, Paragraph B-4c)

   •   One contract was awarded even though at least three responses from the RFP
       were not received and the reason was not documented . (LSC Administrative
       Manual, Chapter 1, Part III, Paragraph B-2b)

   •   Documentation on file for six contracts was not sufficient to constitute a complete
       history of contracting actions, including the RFP or statement of work, the list of
       bidders solicited, the response from each bidder, and the analysis performed on
       the bids received. (LSC Administrative Manual, Chapter 1, Part I, Paragraph
       B-3)




                                             3
    •   In one instance, contract terms were modified without a documented amendment
        or documented review of changes by the Office of Legal Affairs. (LSC
        Administrative Manual, Chapter 1, Part III, Paragraph B-4b)

Office of Financial and Administrative Services (OFAS) operating personnel indicated
they did not have a clear understanding of what contract documents were required to be
maintained in the Comptroller's office contracting records. Our review of the LSC
Accounting Procedures Manual 1 (APM) disclosed that procedures on how OFAS staff
members were to implement the contracting requirements contained in the LSC
Administrative Manual were not fully documented . There was no checklist or other
document used by the Comptroller's office to ensure that required contracting records
were adequately prepared, provided for review, and maintained. Following proper
contracting policies and procedures helps protect LSC's interests and helps ensure that
LSC receives the best value for services received .

Recommendations: The Comptroller should:

        Recommendation 1. Update the LSC Accounting Procedures Manual to include
        OFAS policies and procedures that implement the contracting requirements of
        the LSC Administrative Manual, Chapter 1, Parts I and III. The two manuals
        should be in agreement.

        Recommendation 2. Develop and implement a checklist to use in determining
        and documenting the procedural sufficiency of each consultant contract. The
        completed checklist for each consultant contract should be retained in OFAS
        contracting files.

Quarterly Reporting

The Comptroller did not provide written quarterly reports to the LSC President on all
consultant contracts signed during each quarter. LSC management agreed with the
initial report's recommendation to require periodic reporting to the President of all
consultant contracts executed along with the Comptroller's certification that procedural
sufficiency has been attained. LSC management stated in its response to the prior
audit, "we will adopt a reporting requirement for consultant contracts that includes the
Comptroller certification and notice to the President of the Corporation ."

The LSC Administrative Manual, Chapter 1, Part III, Paragraph B-5, requires that written
quarterly reports be prepared by the Comptroller and provided to the President on all
consultant contracts signed during that quarter. The quarterly report is required to
document the Comptroller's assessment as to whether the contracting procedures


1 The Accounting Procedures Manual is a guide internal to OFAS and used by OFAS staff in processing and
recording transactions through LSC's financial management system. While the Accounting Procedures Manual
provided some guidance, it was not complete and did not reflect the current practice for processing purchase
orders.

                                                     4
outlined in the LSC Administrative Manual are being adhered to, and if not, what actions
are needed to achieve full compliance with the procedures.

The Comptroller stated that, although he did not provide written quarterly reports to the
President, he did provide monthly encumbrance reports to the President. However, the
encumbrance reports do not serve the same purpose as the quarterly procedural
sufficiency reports. The purpose of the encumbrance report provided to the President is
to identify the outstanding balance on contracts for which purchase orders were issued
while the purpose of quarterly procedural sufficiency reports is to identify whether LSC's
contracting policies and procedures were followed for all contracts issued during the
quarter. Also, the encumbrance reports did not include the Comptroller's assessment of
procedural sufficiency or suggested corrective actions for any noncompliance noted.
The Comptroller provided no specific reason for not preparing and distributing the
quarterly report as indicated in management's response to the original audit.

Quarterly reporting protects LSC's resources by assuring that proper contracting
policies and procedures are followed, any deviations are identified in a timely manner,
and corrective action is taken .

Recommendation 3. The Comptroller should provide written quarterly reports to the
LSC President on all consultant contracts signed during each quarter as required by the
LSC Administrative Manual, Part III, Paragraph B5. The reports should include the
Comptroller's assessment of whether the contracting procedures outlined in the LSC
Administrative Manual are being adhered to, and if not, what actions are needed to
correct any deficiencies.

Purchase Order Processing

Purchase orders for the consultant contracts reviewed were either not issued or not
issued properly. LSC did not issue purchase orders for two of the contracts and for four
other contracts, a payment was processed prior to issuing a purchase order. The LSC
Administrative Manual, Chapter 1, Part III, Paragraph B-4a, requires that a purchase
order be issued upon confirmation that a contract has been properly executed, and
Part I, Paragraph C-5, requires that no invoice be paid until the purchase order has
been approved.

For the two contracts paid in full without purchase orders, the staff member responsible
for preparing purchase orders was not notified that the contracts were approved and
executed. For the four contracts where a payment was made prior to issuing the
purchase order, the first payments on the contracts were made outside of the purchase
order system. As explained by the Comptroller, these four contracts were examples
where contract originators presented invoices for payment before the contract had been
signed and returned by the contractor.

Two additional items contributed to improperly processed purchase orders. First, the
Accounting Procedures Manual did not fully describe the policies and procedures for


                                            5
processing purchase orders. Second, OFAS operating personnel did not ensure that
purchase orders were issued prior to paying the invoices.

Following established requirements for processing purchase orders before contract
payments are made helps ensure contracts are properly executed and paid in
accordance with approved terms.

Recommendations: The Comptroller should:

      Recommendation 4 .. establish procedures that ensure purchase orders are
      properly issued and processed.

      Recommendation 5. update the LSC Accounting Procedures Manual to include
      current OFAS policies and procedures for processing purchase orders .

                                 AUDIT COMMENT

During the course of the audit, LSC management took two actions to implement the
controls already in place and to further strengthen some of these controls. First, LSC
provided mandatory training for all staff members who are involved in the contracting
process. The training reinforced current policies and procedures, and provided some
guidance on documenting contract actions. Second, LSC management initiated a
formal review of its current policies and procedures.

                     SUMARY OF MANAGEMENT COMMENTS

Management has agreed to and has either implemented or is in the process of
implementing the OIG recommendations. For Recommendation 1, the Comptroller
provided revisions to the LSC Accounting Procedures Manual to ensure that policies
and procedures were now in agreement with the LSC Administrative Manual. In
response to recommendation two, a checklist was developed to include in the contract
file to document procedural sufficiency. For Recommendation 3, the Comptroller will
provide a written memo to the LSC President regarding whether contracting procedures
were or were not followed and if corrective actions are needed.           Finally, for
Recommendations 4 and 5, OFAS is currently in the process of revising Chapter 1 of
the LSC Administrative Manual which will affect the Accounting Procedures Manual. In
addition, training will be provided in July 2014 to OFAS staff who process purchase
orders and invoices to ensure procedures are understood and followed correctly.

                OIG EVALUATION OF MANAGEMENT COMMENTS

The OIG has reviewed management's comments to the draft report findings and
recommendations and has determined that the actions OFAS has planned or completed
are responsive to the recommendations. Based on documentation provided by OFAS,




                                          6
Recommendations 1 through 3 are complete and will be considered closed .
Recommendations 4 and 5 will remain open until the OIG has been notified in writing
that the applicable policies and procedures have been updated and added to the
applicable manuals .




                                         7
                                                                              Appendix I

                          SCOPE AND METHODOLOGY

To accomplish the audit objectives, the OIG identified, reviewed, evaluated and tested
the internal controls related to the award and administration of contracts.

To obtain an understanding of the internal controls over these areas, policies and
procedures were reviewed, including any relevant manuals, guidelines, memoranda,
emails, and directives setting forth current LSC practices.             LSC officials were
interviewed to obtain an understanding of the internal control framework, and
management and staff were interviewed as to their knowledge and understanding of the
processes in place. To review and evaluate internal controls, LSC's internal control
system and processes were compared to applicable laws and regulations. We
assessed the reliability of computer generated data provided by LSC management by
reviewing source documentation for the entries selected for review. We determined that
the data were sufficiently reliable for the purposes of this report. This review was limited
in scope and not sufficient for expressing an opinion on the entire system of LSC
internal controls over financial operations.

To test controls and the appropriateness of contracts, we reviewed a non-statistical
sample of nine contracts totaling $630,931 selected from LSC's transaction listing by
account report - consultant contracts. The sample was taken from the period July 1,
2009 through May 31, 2013, and represented approximately 37 percent of the
$1,690,982.73 disbursed for contracts other than retainer agreements with outside
counsel. To assess the appropriateness of contracts, we reviewed documentation
maintained in contract files, and conducted interviews of management and staff. The
appropriateness of those contracts was evaluated on the basis of the LSC's contracting
policies and procedures.

While 12 contracts were initially selected, 3 contracts were not reviewed for purposes of
this audit. Although LSC's transactions listing indicated that the three items were
consulting contracts, our review indicated they were not and thus not within the scope of
our review. The first transaction was for donated consultant services, the second
transaction was a relatively low dollar amount for video editing, and the third transaction
was to co-sponsor a publication.

The audit fieldwork was conducted from June 13, 2013 through April 22, 2014. Our
work was conducted at LSC's headquarters in Washington, DC. Documents reviewed
pertained to the period July 1, 2009 through May 31, 2013 .




                                            1- 1
This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. The OIG believes that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.




                                        1-2
                                                                                   APPENDIX II


ii~ LSC
                                                               l egal Services Corporation
                                                               America's Partner For Equal Justice




FINANCIAL     &   ADMINISTRATIVE SERVICES

                             MEMORANDUM

TO:        John Seeba

FROM:      David Richardson dlr

CC:        Jim Sandman
           Ron Flagg

DATE:      June 27,2014

SUBJECT: Office of Inspector General (Report No. AU09-0S)


      Thank you for the opportunity to comment on your draft report on your
audit of LSC's consultant contracts (Report Number AU09-0S). We have
reviewed the report and accept all of its recommendations.

      Recommendation 1. Update the LSC Accounting Procedures Manual to
      include OFAS policies and procedures that implement the contracting
      requirements of the LSC Administrative Manual, Chapter 1, Parts I and
      III. The two manuals should be in agreement.
      Response: The LSC Accounting Procedures Manual has been revised to
      include a section on the Purchase Order process and directs the user to
      the Administrative Manual for additional information.

      Recommendation 2. Develop and implement a checklist to use in
      determining and documenting the procedural sufficiency of each
      consultant contract. The completed checklist for each consultant
      contract should be retained in the OFAS contracting files.
Page 2

         Response: A checklist has been developed. A copy of a blank form is
         attached, and I have included one that has been completed for a new
         contract.

     Recommendation 3. The Comptroller should provide written quarterly
     reports to the LSC President on all consultant contracts signed during
     each quarter as required by the LSC Administrative Manual, Part III,
     Paragraph 85. The report should include the Comptroller's assessment
     of whether the contracting procedures outlined in the L5C
     Administrative Manual are being adhered to, and if not what actions
     are needed to correct any deficiencies.
     Response: We will provide a memo quarterly regarding an assessment
     of contracting procedures that were followed, and, if procedures were
     not followed, we will notify the President and explain how to correct
     the deficiencies. An example of a quarterly memo is attached based on
     the May 2014 encumbrance report.

         Recommendation 4. Establish procedures that ensure purchase orders
         are properly issued and processed.
         Recommendation 5. Update the LSC Accounting Procedures Manual to
         include current OFAS policies and procedures for processing purchase
         orders.
         Response to 4 and 5: We are in the process of revising Chapter 1 of the
         LSC Administrative Manual, which will affect the Accounting
         Procedures Manual. In the meantime, a revision to the current LSC
         Administrative Manual, Chapter 1, has been completed and included in
         the Accounting Procedures Manual. This revision describes current
         practices regarding issuing purchase orders and provides instruction on
         how to process the exception and whether there is a need for a
         purchase order or not.
Page 3

      Training will be provided in July to OFAS staff who process purchase
orders and invoices to ensure that all of the procedures are being followed
correctly.

      Thank you for providing this information. We look to improve our
internal controls, and your report and our implementation of its
recommendations to us are helpful in that regard.

         Please let me know if you need further information.
